E

2311 Douglas Street
Omaha, Nebraska 68102-12i4

E-Mail Address:
contact@cocklelegalbriefs.com

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No. 19-1029
BETHANY AUSTIN,
Petitioner,
V.

STATE OF ILLINOIS,
Respondent.
CERTIFICATE OF COMPLIANCE
. As required by Supreme Court Rule 33.l(h), I certify that the BRIEF OF THE INSTITUTE
FOR WSTICE AS AMICUS CURIAE IN SUPPORT OF PETITIONER in the above entitled case
complies with the typeface requirement of Supreme Court Rule 33.l(b), being prepared in New
Century Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains
'

3852 words, excluding the parts that are exempted by Supreme Court Rule 33.l(d), as needed.

Subscribed and sworn to before me this 20th day of March, 2020.
I am duly authorized under the laws of the State ofNebraska to administer oaths.

Affiant

39560

